Ma r c os H as bu n
Z uc k er m an S p ae d er L L P
m has bu n @ zu c k er m an. c om
( 81 3) 2 2 3- 79 6 1

March 12, 2021
VIA ECF & FEDERAL EXPRESS
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Tri-State Zoological Park of Western Maryland, Inc., et al. v. People for
the Ethical Treatment of Animals, Inc., No. 20-1183

Dear: Mr. Harris
We represent the Respondent, People for the Ethical Treatment of Animals,
Inc, in the above-referenced matter. The petition for a writ of certiorari was filed on
February 23, 2021, and docketed on February 25, 2021. Respondent’s brief in
opposition is currently due March 29, 2021.
We respectfully request a 30-day extension of time within which to file the brief
in opposition, which would then by due on April 28, 2021. Between now and the
current due date of the brief, I and other counsel representing Respondent have
substantial obligations in other cases. We therefore request this extension in order to
carefully consider and respond to the arguments raised by Petitioners. Petitioners
have stated they do not oppose this request.
Thank you for your assistance.
Sincerely,
/s/ Marcos E. Hasbun
Marcos Hasbun
cc:

Adam B. Abelson, Zuckerman Spaeder LLP
Lynn Thomas Krause, Kagan, Stern, Marinello & Beard, LLC, Counsel for
Petitioners

1 0 1 E . K E N N E D Y B L V D . , S U I T E 1 2 0 0 , T AM P A, F L 3 3 6 0 2 - 5 8 3 8 | T 8 1 3 . 2 2 1 . 1 0 1 0 | F 8 1 3 . 2 2 3 . 7 9 6 1
Z U C K E R M AN S P AE D E R L L P | W AS H I N G T O N , D C | N E W Y O R K | T AM P A | B AL T I M O R E

